                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Environmental Job Training
                     Program Implemented Well,
                     But Focus Needed on
                     Possible Duplication With
                     Other EPA Programs
                     Report No. 12-P-0843              September 21, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Carolyn Copper
                                                    Chad Kincheloe
                                                    Jenny Drzewiecki
                                                    Barry Parker
                                                    Naomi Rowden




Abbreviations

EPA            U.S. Environmental Protection Agency
EWDJT          Environmental Workforce Development and Job Training
FY             Fiscal Year
GAO            U.S. Government Accountability Office
OIG            Office of Inspector General
OSWER          Office of Solid Waste and Emergency Response
SuperJTI       Superfund Job Training Initiative


Cover photo:       Students in Richmond, California’s, Job Training Program. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:      OIG_Hotline@epa.gov                     write:   EPA Inspector General Hotline
  phone:       1-888-546-8740                                   1200 Pennsylvania Avenue NW
  fax:         202-566-2599                                     Mail code 2431T
  online:      http://www.epa.gov/oig/hotline.htm               Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                   12-P-0843
                                                                                                         September 21, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review                   Environmental Job Training Program
We conducted this review to              Implemented Well, But Focus Needed on
determine whether the U.S.
Environmental Protection                 Possible Duplication With Other EPA Programs
Agency’s (EPA’s) Environmental
Workforce Development and Job             What We Found
Training (Environmental Job
Training) program is addressing its      EPA effectively established and adhered to competitive criteria that resulted in
program goals and whether                the selection of job training proposals that addressed the broad goals of the
duplications may occur with other        Environmental Job Training program. However, EPA did not have internal
EPA job training programs. The           controls to identify and prevent duplication with other EPA job training programs.
broad goals of the Environmental         Consequently, there is some risk of duplication in EPA awards for job training
Job Training program are to recruit      programs. Other EPA programs that could possibly duplicate Environmental Job
and teach individuals from solid         Training activities include the:
and hazardous waste-impacted
communities the skills needed to                Superfund Job Training Initiative (SuperJTI) job readiness program
secure employment in the                        Surveys, Studies, Investigations, Training and Special Purpose Activities
environmental field. Recruitment                 Relating to Environmental Justice grant program
focuses on low-income, minority,
                                                Environmental Justice Small Grant Program
unemployed, and under-employed
people. Training focuses on
                                         EPA recognizes the need to identify possible duplication. In fiscal year 2012,
assessment and cleanup of
                                         EPA added a requirement to its Environmental Job Training grant application for
contaminated sites, health and
                                         applicants to demonstrate that their proposed project will complement, but not
safety, and other environmental
                                         duplicate, other federally funded environmental job training programs. However,
skills. In fiscal year 2011, the first
                                         assigning a determination of duplication to an applicant may be an ineffective
year of the program, EPA awarded
                                         internal control unless EPA has assurance that applicants possess the necessary
22 job-training grants collectively
                                         knowledge and skills to perform the duplication determination.
valued at more than $6.5 million.
                                         Effective internal controls should identify all EPA job training programs with
This report addresses the
                                         similar goals and include measurable individual program contributions or
following EPA Goal or
                                         outcomes to meet these goals. This would provide a basis for integrating
Cross-Cutting Strategy:
                                         potentially duplicative, overlapping, or complementary job training programs.
 Cleaning up communities
  and advancing sustainable               Recommendation and Planned Agency Corrective Action
  development
                                         We recommend that the Assistant Administrator for Solid Waste and Emergency
                                         Response establish internal controls for coordination with other EPA-funded job
                                         training programs to prevent duplication of effort and spending. The Agency
                                         agreed with the findings and recommendation in this report, committed to work to
For further information, contact
                                         improve internal controls in order to better identify and prevent duplication with
our Office of Congressional and
Public Affairs at (202) 566-2391.
                                         other EPA job training programs, and provided a milestone completion date for
                                         the recommendation.
The full report is at:
www.epa.gov/oig/reports/2012/
20120921-12-P-0843.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                       September 21, 2012

MEMORANDUM

SUBJECT:	 Environmental Job Training Program Implemented Well, But Focus Needed on
          Possible Duplication With Other EPA Programs
          Report No. 12-P-0843


FROM:          Arthur A. Elkins, Jr.

TO:            Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.

Action Required

Because you have provided a corrective action plan with a milestone date, you are not required
to provide a written response to this final report. Should you choose to provide a response, your
response will be posted on the OIG’s public website, along with our memorandum commenting
on your response. Your response should be provided as an Adobe PDF file that complies with
the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The
final response should not contain data that you do not want to be released to the public; if your
response contains such data, you should identify the data for redaction or removal. We have no
objections to the further release of this report to the public. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov; or Chad Kincheloe at (312) 886-6530 or
kincheloe.chad@epa.gov.
Environmental Job Training Program Implemented Well,                                                                        12-P-0843
But Focus Needed on Possible Duplication With
Other EPA Programs



                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               2     


   2    Selected Grants Addressed Goals, But Possibility for Duplication Exists ..                                                 4


                Selected Grants Addressed Environmental Job Training Goals .................                                       4

                Possible Duplication with Other EPA Job Training Programs .....................                                    4

                Conclusion...................................................................................................      5     

                Recommendation ........................................................................................            6         

                Agency Response and OIG Evaluation ......................................................                          6


   Status of Recommendations and Potential Monetary Benefits..............................                                         7




Appendices
   A    Agency Response to Draft Report and OIG Comment ..................................                                         8


   B    Distribution .........................................................................................................    10 

                                 Chapter 1

                                  Introduction
Purpose
            We conducted this review to determine whether the U.S. Environmental
            Protection Agency’s (EPA’s) Environmental Workforce Development and Job
            Training (EWDJT, or Environmental Job Training) program is addressing its
            program objectives. We also evaluated possible duplication with other EPA job
            training programs. We asked the following questions:

               	 How is the Environmental Job Training program implemented and is this
                  implementation achieving its targeted goals?

               	 How is the Environmental Job Training program different from other EPA
                  workforce development and job training grant programs and is there any
                  duplication?

Background

            Program Goals and Overview

            The broad goals of the Environmental Job Training competitive grant program are
            to:

               	 Recruit and teach individuals from solid and hazardous waste-impacted
                  communities the skills needed to secure full-time, sustainable employment
                  in the environmental field
               	 Focus recruitment on low-income, minority, unemployed, and under-
                  employed people

            Job training within the program focus on assessment and cleanup of contaminated
            sites, health and safety, and other environmental skills. According to EPA, these
            grants help prepare people for green jobs that reduce environmental
            contamination and provide more sustainable futures for the communities most
            affected by solid and hazardous waste contamination.

            The Environmental Job Training program was created as an expansion of and
            replacement for EPA’s Brownfields Job Training program. The Office of
            Brownfields and Land Revitalization led the effort to create the program to more
            closely collaborate on workforce development and job training with other
            programs within EPA’s Office of Solid Waste and Emergency Response. The
            Environmental Job Training program now includes expanded training in other
            environmental media outside the traditional scope of just brownfields. In fiscal


12-P-0843                                                                                      1
            year (FY) 2011, the first year of the program, EPA awarded 22 job-training grants
            collectively valued at more than $6.5 million.

            Government Focus on Duplication and Overlap

            The U.S. Government Accountability Office (GAO) reports annually on selected
            federal programs that have duplicative goals or activities. GAO defines
            duplication as when two or more agencies or programs are engaged in the same
            activities or provide the same services to the same beneficiaries. GAO states that
            programs overlap when they have similar goals, devise similar strategies and
            activities to achieve those goals, or target similar users. The term “potential
            duplication” is used by GAO where information has not been available that would
            provide conclusive evidence of duplication or overlap.

            According to GAO, the Government Performance and Results Act Modernization
            Act of 2010 includes a focus on identifying federal programs with duplicative
            goals and activities. The Act requires each agency to identify the various federal
            organizations and activities contributing to its goals. Each agency must also
            describe how the agency is working with other agencies to achieve its goals.
            Performance indicators to measure overall progress toward these goals as well as
            the individual contribution of the underlying agencies and federal activities are
            also required. These requirements provide a basis for integrating potentially
            duplicative or overlapping federal activities.

            EPA’s 2009–2013 Grants Management Plan recognizes that effective grants
            management “requires reducing or eliminating unnecessary duplication of effort.”
            EPA’s plan includes an Agency goal to “support the Agency’s vision of managing
            grants to further EPA’s mission of protecting human health and the environment
            in accordance with the highest stewardship and fiduciary standards.”

            The president’s 2013 proposed EPA budget states that reducing duplicative,
            overlapping, or underperforming activities across government is essential to
            ensure that taxpayer dollars are spent efficiently.

Scope and Methodology
            We conducted this evaluation from December 2011 through August 2012 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the evaluation to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our evaluation objective. We believe that the evidence
            obtained provides a reasonable basis for our findings and conclusions based on
            our evaluation objective.

            We interviewed Office of Brownfields and Land Revitalization staff and
            managers responsible for implementation, design, and oversight of the


12-P-0843                                                                                     2
            Environmental Job Training program. Because results from the awarded FY 2011
            grants were not available when we started our review, we evaluated EPA’s
            implementation of the grant selection and awarding process for the first year of
            the program. We reviewed the implementation of the Office of Brownfields and
            Land Revitalization’s Environmental Job Training grant selection process to
            determine whether the process established selection criteria based on and linked
            to its program goals. We compared how all 22 selected FY 2011 Environmental
            Job Training grants addressed EPA’s selection criteria.

            We identified other EPA job training programs with the potential for duplication
            with the Environmental Job Training program by searching official government
            records and databases. Our search criteria were key words for the populations,
            communities, and training targeted by the Environmental Job Training program.
            Our search identified over 30 EPA programs meeting one or more of the criteria.
            For programs meeting more than one criterion, we reviewed the program
            description and other information available and, where applicable, contacted the
            EPA program offices to verify the potential for duplication with the
            Environmental Job Training program.




12-P-0843                                                                                      3
                                           Chapter 2

                   Selected Grants Addressed Goals, 

                  But Possibility for Duplication Exists 

                 EPA effectively established and adhered to competitive criteria that resulted in
                 selection of job training proposals that addressed the broad goals of the
                 Environmental Job Training program. However, internal controls to identify and
                 prevent duplication with other EPA job training programs were not in place. We
                 identified other EPA programs with potential to duplicate Environmental Job
                 Training program activities. Consequently, there is some risk of duplication in
                 EPA awards for job training programs.
Selected Grants Addressed Environmental Job Training Goals

                 FY 2011 grant recipients were selected by the Assistant Administrator for Solid
                 Waste and Emergency Response based on highest rank and other applicable
                 factors. Selected grantees first passed the threshold eligibility criteria,1 and were
                 then scored according to the ranking criteria.2 We found evidence that all
                 22 selected grantees addressed program goals in their applications.

Possible Duplication With Other EPA Job Training Programs
                 The Environmental Job Training program did not have internal controls to
                 identify and prevent duplication with other EPA-funded environmental job
                 training programs.

                 Other EPA Programs With Potential for Duplicating Environmental
                 Job Training Activities

                 We identified other EPA programs that could possibly duplicate Environmental
                 Job Training activities. Potentially duplicative activities included:

                         Providing job skills training to secure full-time employment in the
                          environmental field
                         Job search or placement activities
                         Targeting similar populations (e.g., minorities, low income, unemployed,
                          and under-employed)
                         Serving communities affected by hazardous waste sites




1
 Threshold eligibility criteria included applicant eligibility, required training, and funding amount. 

2
 Ranking criteria included community need, training program description and anticipated outcomes and outputs,

programmatic capability, institutional capacity, community and employer partnerships, and budget/resources. 



12-P-0843                                                                                                        4
            For example, the Superfund Job Training Initiative (SuperJTI) contract program
            is a job readiness program that provides training and employment opportunities
            for citizens living in communities affected by hazardous waste sites. Many of
            these areas are environmental justice communities and minority and low-income
            neighborhoods. SuperJTI trainees acquire skills to work on environmental
            remediation projects, Superfund site cleanup projects, and construction projects.

            The Surveys, Studies, Investigations, Training and Special Purpose Activities
            Relating to Environmental Justice grant program and the Environmental Justice
            Small Grant Program included activities similar to the Environmental Job
            Training Program. Similar activities included recruiting, training, and securing
            full-time employment. Projects selected for these other programs could also be
            from communities impacted by solid and hazardous waste.

            Lack of Internal Controls Risks Duplication

            The Environmental Job Training program does not have internal controls in place
            to identify and prevent duplication of EPA efforts and spending. Such internal
            controls could include formal policies, written procedures, or required checklists
            to prevent duplication of EPA efforts and spending. Consequently, there is some
            risk of duplication in EPA awards for job training programs by not having internal
            controls to prevent duplication.

            Job Training Activities Must Complement But Not Duplicate

            EPA recognizes the need to identify possible duplication. In FY 2012, EPA added
            a requirement to its Environmental Job Training grant application for applicants
            to demonstrate that their proposed project will complement, but not duplicate,
            other federally funded environmental job training programs. However, assigning a
            determination of duplication to an applicant may not be an effective internal
            control unless EPA has assurance that applicants possess the necessary knowledge
            and skills to perform this activity.

Conclusion
            EPA effectively established the Environmental Job Training grant application
            criteria for FY 2011. This resulted in selection of grantees that addressed EPA
            program goals. However, the Environmental Job Training program does not have
            internal controls to identify and prevent duplication with other EPA-funded
            programs. The Environmental Job Training program needs to create internal
            controls to reduce or eliminate the risk of duplication in awarding EPA funds
            through the Environmental Job Training program and other EPA programs.
            Effective internal controls should identify all EPA job training programs with
            similar goals and include measurable individual program contributions or
            outcomes to meet these goals. This would provide a basis for integrating
            potentially duplicative, overlapping, or complementary job training programs.


12-P-0843                                                                                       5
Recommendation
            We recommend the Assistant Administrator for Solid Waste and Emergency
            Response:

               1.	 Establish internal controls for coordination with other EPA-funded job
                   training programs to prevent duplication of effort and spending.

Agency Response and OIG Evaluation
            The Office of Solid Waste and Emergency Response (OSWER) agreed with the
            findings and recommendation in this report, and committed to work to improve
            internal controls in order to better identify and prevent duplication with other EPA
            job training programs. We reviewed OSWER’s comments and made changes to the
            report as appropriate. Appendix A provides the full text of OSWER’s response and
            the OIG’s comments.




12-P-0843                                                                                          6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                         Subject                        Status1      Action Official           Date      Amount      Amount

     1        6     Establish internal controls for coordination with       O     Assistant Administrator    9/30/13
                    other EPA-funded job training programs to prevent              for Solid Waste and
                    duplication of effort and spending.                           Emergency Response




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0843                                                                                                                                       7
                                                                                       Appendix A

                   Agency Response to Draft Report
                         and OIG Comment

MEMORANDUM

SUBJECT:       Response to Draft Audit Report, “Environmental Job Training Program
               Implemented Well, But Focus Needed on Possible Duplication
               With Other EPA Programs” Project No. OPE-FY12-2506

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Carolyn Copper
               Assistant Inspector General for Program Evaluation

Thank you for the opportunity to comment on the issues and recommendations in the subject
audit draft report. We agree with the findings and recommendation in this report, and we will
work to improve internal controls in order to better identify and prevent duplication with other
EPA job training programs. Our comments on the report and recommendation are below.

Comment on the Report

Please note on page 4 of the draft report that “job readiness training” is not an eligible use of
grant funds under the Environmental Workforce Development and Job Training (EWDJT)
Program, as stated on page 7 of the EWDJT Application Guidelines.
http://www.epa.gov/oswer/docs/grants/epa-oswer-oblr-11-01.pdf

OIG Response: OSWER’s cited source, “EWDJT Application Guidelines,” for “job readiness
training,” is specific to the ineligibility of grant funds for the purpose of “job readiness training”
for developing resumes and acquiring interview skills. The OIG report’s context is specific to the
SuperJTI contract program described as a job readiness program that provides training to work
on environmental remediation and clean-up projects. To avoid any misunderstanding or
confusion, the OIG has removed the word “readiness” from the first bullet under the report
section titled “Other EPA Programs With Potential for Duplicating Environmental Job Training
Activities.” We retained “readiness” in the specific context of the SuperJTI program.


Specific Recommendation and Response

Recommendation: Establish internal controls for coordination with other EPA-funded job
training programs to prevent duplication of effort and spending.




12-P-0843                                                                                            8
Response: We will add language under the current “demonstration of non-duplication” threshold
criterion in the EWDJT Application Guidelines that states “applicants must demonstrate the
proposed training project does not duplicate other federally-funded programs for environmental
job training in the target community. This will include the programs currently listed, as well as
the Superfund Job Training Initiative; the Environmental Justice Small Grants Program CFDA
66.604; and the Surveys, Studies, Investigations, Training, and Special Purpose Activities
Relating to Environmental Justice grants program CFDA 66.309.” In addition, OSWER’s Office
of Brownfields and Land Revitalization and Office of Superfund Remediation and Technology
Innovation will work with the Office of Environmental Justice (OEJ) to conduct an internal
review of proposals submitted in response to future competitions to help avoid potential
duplication. This potential duplication screening has already been initiated as part of a threshold
review with the National Institute of Environmental Health Sciences (NIEHS) and the
Department of Labor (DOL). These changes will be implemented for the FY13 EWDJT grant
competition. The release date of the FY13 RFP has not yet been determined.

OIG Response: The OIG recognizes OSWER’s commitment to work with the Office of
Environmental Justice to conduct an internal review of other EPA-funded job training programs
as addressing the intent of the OIG recommendation. The OIG accepts the completion date for
the above corrective action plan to be no later than the end of FY 2013 (September 30, 2013).

OSWER’s response indicates that it intends to continue the practice of assigning a determination
of duplication to the applicant. OSWER stated that language will be added under the current
“demonstration of non-duplication” threshold criterion in the EWDJT Application Guidelines
that states applicants must demonstrate the proposed training project does not duplicate other
federally-funded programs for environmental job training in the target community.

The OIG continues to maintain, as stated in this report, that assigning a determination of
duplication to an applicant may be an ineffective internal control unless EPA has assurance that
applicants possess the necessary knowledge and skills to perform the duplication determination.

If you have any questions regarding this response, please contact David Lloyd at 202-566-2731
Lloyd.DavidR@epa.gov or Gail Cooper at 202-566-0168 Cooper.GailAnn@epa.gov.




12-P-0843                                                                                          9
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




12-P-0843                                                                           10
